Roy Black
Howard Srebnick
Scott A. Kornspan
Maria Neyra
Jackie Perczek
Mark A.J. Shapiro
Jared Lopez
Benjamin S. Waxman
Lance W. Shinder

Email: HSrebnick@RoyBlack.com

Frank Sardinha, III
Michèle C. van Meeteren
Alyssa Silvaggi
Robert T. Dunlap
Donald J. Hodson
Chelsea A. Hackman
Kyle A. Johnson
David D. Switzler
Jeanelle Gomez
OF COUNSEL:

Larry A. Stumpf (retired)

April 2, 2021
Hon. Scott Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543-0001
Re:

Nidal Ahmed Waked Hatum v. United States, No. 20-1370

Dear Mr. Harris:
I am counsel of record for the petitioner, Nidal Ahmed Waked Hatum. He
filed a Petition for a Writ of Certiorari on March 26, 2021.
Please accept this letter as a blanket consent by the petitioner to the filing
of amicus curiae briefs, in support of either party or of neither party.
Respectfully submitted,
Howard Srebnick
Counsel of Record
cc:

Office of the Solicitor General

